OIG Audit Report GR-80-07-002

Fiscal Year 2003 Residential and Substance Abuse Treatment Formula Grant Awarded to the Oklahoma District Attorneys Council

Audit Report GR-80-07-002


October 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of the FY 2003 Residential and Substance Abuse Treatment Formula Grant, number 2003-RT-BX-0019, awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Oklahoma District Attorneys Council (DAC) located in Oklahoma City, Oklahoma. 
The Residential Substance Abuse Treatment (RSAT) Formula Grant Program assists states and local governments in developing and implementing substance abuse treatment programs in state and local correctional and detention facilities.  The RSAT Program also assists states and local governments in creating and maintaining community-based aftercare services for offenders who are released from institutionally based substance abuse programs.  At least 10 percent of the total state allocation shall be made available to local correctional and detention facilities for each residential substance abuse treatment program or jail-based substance abuse treatment programs.
On July 24, 2003, the DAC was awarded a total of $1,089,984 to support its efforts to provide substance abuse treatment programs and aftercare services for offenders. 
As part of the audit, we tested the DACs compliance with essential grant conditions  reporting, grant drawdowns, budget management and control, matching program costs, grant expenditures, and monitoring of subrecipients.  In addition, we tested the accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant.  Our audit objectives, scope, and methodology appear in Appendix I of this report.  We did not find discrepancies in any of the areas we tested.  As a result, we did not question any costs claimed under this grant.